Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel No.: (212) 619-4949•Fax No. (212) 608-3141

80482
STATE OF NEVV YORK,
SS:

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels Vinci being duly sworn, deposes and says that deponent is not party to the action,
and is over 18 years of age.
That on the 12nd day of November 2019 deponent served 3 copies of the within

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Noel Francisco
Solicitor General of the United States
950 Pennsylvania, NW., Room 5616
Washington, DC 20530
(202) 514-2217
SupremeCtbriefs@JSDalgov

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on November 12, 2019, pursuant to Supreme
Court Rule 29.5(c). All parties required to be served, have been served.
Howard Daniels

Sworn to me this

November 12, 2019
ALESSANDRA L. KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires April 18, 2020

Case Name: Nekebwe Superville

v. United States of America

